      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General




                                                                          Washington, D.C. 20201




May 26, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of the Centers for Disease Control and Prevention’s Resolution of Audit
               Recommendations (A-07-09-03131)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s resolution of audit recommendations.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-07-09-03131 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF THE CENTERS FOR
   DISEASE CONTROL AND
PREVENTION’S RESOLUTION OF
 AUDIT RECOMMENDATIONS




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-07-09-03131
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                          Notices



     THIS REPORT IS AVAILABLE TO THE PUBLIC

                      at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as questionable,
 a recommendation for the disallowance of costs incurred or claimed,
 and any other conclusions and recommendations in this report
 represent the findings and opinions of OAS. Authorized officials of the
 HHS operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Department of Health & Human Services, Centers for Disease Control and Prevention
(CDC), has primary responsibility for conducting and supporting public health activities in the
United States. CDC carries out this responsibility through internal activities and through grants
and contracts to State, local, and private organizations. The fiscal year (FY) 2010 President’s
budget request for CDC was $10.1 billion.

Pursuant to Office of Management and Budget Circular A-50, section 8a(2), and other
authorities, CDC is also responsible for resolving Federal and non-Federal audit report
recommendations related to its activities, grantees, and contractors within 6 months after formal
receipt of the reports. The Office of Inspector General prepares and forwards to CDC monthly
stewardship reports that show the status of these reported audit recommendations. Our review
covered 1,167 audit recommendations identified in stewardship reports for FYs 2007 through
2009.

OBJECTIVES

Our objectives were to determine whether CDC had (1) resolved audit recommendations in a
timely manner during FYs 2007 through 2009 and (2) resolved all audit recommendations that
were due for audit resolution by September 30, 2009.

SUMMARY OF FINDINGS

CDC resolved 815 of the 1,167 audit recommendations that were outstanding during FYs 2007
through 2009. However, it did not resolve 274 of the 815 recommendations within the required
6-month period. In addition, as of September 30, 2009, CDC had not resolved 352 audit
recommendations, of which 213 were past due for resolution. The dollar amounts associated
with the 213 recommendations totaled $249.7 million.

Because CDC did not resolve all audit recommendations in a timely manner, it did not have
reasonable assurance that it was exercising proper stewardship over Federal dollars. The prompt
resolution of audit recommendations will help ensure that Federal funds are effectively and
efficiently used to carry out the activities for which they were authorized.

RECOMMENDATIONS

We recommend that CDC:

   •   resolve all audit recommendations within the required 6-month audit resolution period
       and

   •   resolve the 213 outstanding audit recommendations that were past due as of
       September 30, 2009.


                                                 i
CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CDC neither agreed nor disagreed with our
recommendations. However, CDC stated that it did not believe that the lack of a final resolution
equated to poor stewardship of Federal dollars. In addition, CDC identified actions that it
planned to take to meet the required resolution period in a responsible manner, consistent with
laws, rules, and regulations. CDC’s comments, excluding technical comments, are included as
the Appendix.

After reviewing CDC’s comments, we maintain that our recommendations are valid.




                                               ii
                                               TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

       BACKGROUND .................................................................................................................1
           Federal Audits ..........................................................................................................1
           Non-Federal Audits ..................................................................................................1
           Audit Resolution ......................................................................................................2
           Stewardship Reports ................................................................................................2

       OBJECTIVES, SCOPE, AND METHODOLOGY .............................................................3
            Objectives ................................................................................................................3
            Scope ........................................................................................................................3
            Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

       FEDERAL REQUIREMENTS ............................................................................................4

       AUDIT RECOMMENDATIONS RESOLVED BUT NOT IN
        A TIMELY MANNER .....................................................................................................4

       AUDIT RECOMMENDATIONS NOT RESOLVED ........................................................5

       LACK OF REASONABLE ASSURANCE OF PROPER STEWARDSHIP OVER
        FEDERAL DOLLARS .....................................................................................................6

       RECOMMENDATIONS .....................................................................................................6

       CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS AND
        OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIX

       CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                 iii
                                               INTRODUCTION

BACKGROUND

The Department of Health & Human Services (HHS), Centers for Disease Control and
Prevention (CDC), has primary responsibility for conducting and supporting public health
activities in the United States. CDC carries out this responsibility through internal activities and
through grants and contracts to State, local, and private organizations. The fiscal year (FY) 2010
President’s budget request for CDC was $10.1 billion.

CDC is also responsible for resolving Federal and non-Federal audit report recommendations
related to its activities, grantees, and contractors within 6 months after formal receipt of the
reports. 1

Federal Audits

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., the Office of Inspector General
(OIG) conducts audits of internal CDC activities, as well as activities performed by CDC
grantees and contractors. These audits are intended to provide independent assessments of CDC
programs and operations and to help promote economy and efficiency. OIG uses its own
resources to conduct audits in accordance with generally accepted government auditing standards
and oversees audit work done by certified public accounting firms.

Non-Federal Audits

Office of Management and Budget (OMB) Circular A-133 requires that non-Federal entities that
expend $500,000 ($300,000 for FYs ending before December 31, 2003) or more in Federal
awards in a year have a single or program-specific audit conducted for that year pursuant to the
provisions of subpart B, §_____.200. 2 Commercial entities meeting the financial thresholds may
elect to have either an audit pursuant to the provisions of OMB Circular A-133 or a “financial-
related audit” as specified in 45 CFR § 74.26(d)(1)(i). Non-Federal audits are usually conducted
by certified public accounting firms.

OMB Circular A-133 states that the Federal awarding agency is responsible for issuing a
management decision within 6 months after formal receipt of the audit report for
recommendations that relate to its awards. A management decision comprises the evaluation of
audit recommendations and the proposed corrective action plan, as well as the issuance of a
written decision on what corrective action is necessary. OMB Circular A-133, subpart D,
§_____.405(a), states: “The management decision shall clearly state whether or not the audit
finding is sustained, the reasons for the decision, and the expected auditee action to repay


1
    Throughout this report, we use the term “recommendations” to refer to both audit findings and recommendations.
2
 Some State and local governments that are required by constitution or statute in effect on January 1, 1987, to be
audited less frequently than annually are permitted to undergo audits biennially. Nonprofit organizations also are
allowed to have biennial audits under certain conditions.


                                                          1
disallowed costs, make financial adjustments, or take other action. If the auditee has not
completed corrective action, a timetable for follow-up should be given.”

OIG’s National External Audit Review Center (NEAR) reviews single audit reports for
compliance with OMB Circular A-133 and for conformance with professional standards. NEAR
transmits each CDC-related report to the CDC Audit Liaison Office. When appropriate, NEAR
also issues audit alert memorandums to inform CDC of significant audit recommendations.
After resolving the recommendations, CDC issues a management decision to the grantee or
contractor and an audit clearance document to the OIG audit resolution group.

Audit Resolution

In resolving Federal and non-Federal audit recommendations, CDC must comply with
OMB Circular A-50, section 8a(2), which requires “… prompt resolution and corrective actions
on audit recommendations. Resolution shall be made within a maximum of six months after
issuance of a final report or, in the case of audits performed by non-Federal auditors, six months
after receipt of the report by the Federal Government. Corrective action should proceed as
rapidly as possible.”

The HHS Grants Administration Manual, section 1-105, sets forth departmental policies and
procedures for resolving recommendations pertaining to grants, contracts, and cooperative
agreements. According to section 1-105-30(B)(1) of the manual, action officials must resolve
audit recommendations within 6 months of the end of the month in which OIG issued or released
the audit report. Resolution is normally deemed to occur when:

   •   action officials have reached a final decision on the amount of any monetary recovery;

   •   action officials have established a satisfactory plan of action, including time schedules, to
       correct all deficiencies; and

   •   OIG has cleared the report from its tracking system after receiving and accepting the
       audit clearance document(s) from action officials.

Stewardship Reports

The OIG audit resolution group prepares monthly stewardship reports on the status of audit
recommendations reported in Federal and non-Federal audits and forwards the stewardship
reports to the applicable HHS agency. We reviewed the Outstanding Audits and Actions Taken
by Cognizance stewardship reports for CDC. These reports identify all audit reports and
corresponding recommendations issued for the selected period and provide the action taken
(management’s decision) and the date of that action or indicate that no action has been taken.




                                                 2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether CDC had (1) resolved audit recommendations in a
timely manner during FYs 2007 through 2009 and (2) resolved all audit recommendations that
were due for audit resolution by September 30, 2009.

Scope

We determined the resolution of audit recommendations identified in the Outstanding Audits and
Actions Taken by Cognizance stewardship reports for FYs 2007 through 2009. These
stewardship reports identified 334 audit reports and 1,167 corresponding recommendations.

Our objectives did not require an understanding or assessment of CDC’s overall internal control
structure. We limited our review to gaining an understanding of controls over CDC’s audit
resolution process.

We performed our review from July to December 2009 and conducted fieldwork at CDC’s office
in Atlanta, Georgia.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable sections of OMB Circulars A-50 and A-133, the HHS Grants
        Administration Manual, and other Federal requirements;

   •    reviewed CDC policies and procedures for resolving audit recommendations;

   •    interviewed CDC staff and reviewed documentation provided by CDC officials;

   •    determined whether CDC had resolved in accordance with Federal requirements the
        1,167 audit recommendations identified in the FYs 2007 through 2009 stewardship
        reports;

   •    reviewed working papers associated with previously issued OIG audits that tested the
        accuracy of information contained in the stewardship reports; and

   •    determined the dollar amounts associated with any unresolved recommendations that
        were beyond the required resolution period as of September 30, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

CDC resolved 815 of the 1,167 audit recommendations that were outstanding during FYs 2007
through 2009. However, it did not resolve 274 of the 815 recommendations within the required
6-month period. In addition, as of September 30, 2009, CDC had not resolved 352 audit
recommendations, of which 213 were past due for resolution. The dollar amounts associated
with the 213 recommendations totaled $249.7 million.

Because CDC did not resolve all audit recommendations in a timely manner, it did not have
reasonable assurance that it was exercising proper stewardship over Federal dollars. The prompt
resolution of audit recommendations will help ensure that Federal funds are effectively and
efficiently used to carry out the activities for which they were authorized.

FEDERAL REQUIREMENTS

OMB Circular A-50, section 8a(2), requires “… prompt resolution and corrective actions on
audit recommendations. Resolution shall be made within a maximum of six months after
issuance of a final report or, in the case of audits performed by non-Federal auditors, six months
after receipt of the report by the Federal Government. Corrective action should proceed as
rapidly as possible.”

OMB Circular A-133, §_____.405(d), states: “The entity responsible for making the
management decision shall do so within six months of receipt of the [non-Federal] audit report.
Corrective action should be initiated within six months after receipt of the audit report and
proceed as rapidly as possible.”

According to the HHS Grants Administration Manual, section 1-105-30(B)(1), action officials
must resolve audit recommendations pertaining to grants, contracts, and cooperative agreements
within 6 months of the end of the month in which OIG issued or released the audit report.

AUDIT RECOMMENDATIONS RESOLVED BUT
NOT IN A TIMELY MANNER

Of the 815 audit recommendations that CDC resolved during FYs 2007 through 2009,
274 (33.6 percent) were not resolved within the required resolution period. Table 1 on the next
page shows the timeframes for resolving these recommendations.




                                                4
                         Table 1: Timeliness of Audit Recommendations Resolved
                                       in FYs 2007 Through 2009
                                                          Number of       Percentage
                         Timeframe To Resolve
                                                           Resolved           of
                           Recommendation
                                                       Recommendations       Total
                Within 6-month resolution period               541              66.4%
                Beyond 6-month resolution period
                 1 year or less                                169              20.7%
                 1+ year to 2 years                             36               4.4%
                 2+ years to 3 years                            14               1.7%
                 3+ years to 4 years                            25               3.1%
                 4+ years to 5 years                            14               1.7%
                 5+ years                                       16               2.0%
                Subtotal                                       274              33.6%
                      Total                                    815            100.0%

    AUDIT RECOMMENDATIONS NOT RESOLVED

    As of September 30, 2009, CDC had not resolved 213 audit recommendations that were past due
    for resolution. The dollar amounts associated with these recommendations totaled
    $249.7 million. Table 2 presents information on the timeframes for these unresolved
    recommendations. Table 3 on the next page presents additional information on the dollar
    amounts associated with these recommendations, categorized by recommended action.

                Table 2: Unresolved Audit Recommendations Past Due for Resolution
                                     as of September 30, 2009
                                                                                             Percentage
                                                              Average                         of Dollar
                                            Percentage of      Days                           Amounts
                                                Total         Beyond      Dollar Amounts       Beyond
   Timeframe                              Recommendations    Required     Beyond Required     Required
Beyond Required            Number of      Beyond Required    Resolution    Resolution Date   Resolution
 Resolution Date        Recommendations    Resolution Date     Date         (in millions)       Date

1 year or less                 13                6.1%           142.3           $249.3          99.8%
1+ year to 2 years              0                0.0%                              0.0           0.0%
2+ years to 3 years            12                5.6%           890.3              0.0           0.0%
3+ years to 4 years            15                7.1%         1,296.2              0.0           0.0%
4+ years to 5 years            22               10.3%         1,711.4              0.0           0.0%
5+ years                      151               70.9%         2,280.9              0.4           0.2%
  Total                       213              100.0%                           $249.7         100.0%




                                                    5
           Table 3: Unresolved Audit Recommendations Past Due for Resolution
                               as of September 30, 2009—
                        Dollar Amounts by Recommended Action

                                                                     Dollar Amounts
                                                                      of Unresolved
                                                                    Recommendations
                                                                    Beyond Required
                                                                     Resolution Date
                         Recommended Action                            (in millions)

       Monetary recommendations
        Questioned costs                                                      $0.6
        Funds put to better use                                              245.1
        Obtain approval or make financial adjustments                          3.6
       Subtotal                                                             $249.3

       Unable to express an opinion (set aside)                                0.4

         Total                                                              $249.7

LACK OF REASONABLE ASSURANCE OF PROPER
STEWARDSHIP OVER FEDERAL DOLLARS

Because CDC did not resolve all audit recommendations in a timely manner, it did not have
reasonable assurance that it was exercising proper stewardship over Federal dollars.

RECOMMENDATIONS

We recommend that CDC:

   •   resolve all audit recommendations within the required 6-month audit resolution period
       and

   •   resolve the 213 outstanding audit recommendations that were past due as of
       September 30, 2009.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CDC neither agreed nor disagreed with our
recommendations. However, CDC stated that it did not believe that the lack of a final resolution
equated to poor stewardship of Federal dollars. CDC also stated that it remains committed to
resolving audit recommendations in the required 6-month audit resolution period and that it had
resolved 108 (51 percent) of the 213 outstanding audit recommendations. Moreover, CDC stated



                                                  6
that it had committed increased resources to develop standard operating procedures to assist
stakeholders with the development and monitoring of corrective action plans related to OIG’s
recommendations as well as their final resolution. CDC added that it would continue to monitor
and assist its centers and business services offices to meet the required resolution period in a
responsible manner, consistent with laws, rules, and regulations.

CDC also provided technical comments, which we addressed as appropriate. CDC’s comments,
excluding technical comments, are included as the Appendix.

After reviewing CDC’s comments, we maintain that our recommendations are valid.




                                               7
APPENDIX
                                                                                                                           Page 1 of2



APPENDIX: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS


              D EPA R1 '~E 'H   :)f HF ALl H '" >i UklA"I SER'.'I CE<;



                                                                                                                   •.-,1   ~




      TO: 	           Daniel R. Levinson, Inspector General 

                      Dcpanmcnl of Health and Human Services (HI'IS) 



      FROM: 	         Thomas R. Fril'dcn. M.D .. M.P.H.. Director 

                      Centers lor Disease Control and Pn:vcnlinll 



      SUBJECT: 	 Office of Inspector General's Oralt Report: Tlte Rel'fell' otlhe        Cenli:r.~'.Ior Di.I'co.I't!
                      COII/roi (Jlld PrCI'l!ntimr's Resollltion flf Alldif Recommenc/miolls. A-V7-09-03 /3 /



      As requested. following arc the draft report comments of the Centers for Disease Control and
      Prevention (CDC). Office orlhe Di rector (00), re~rding the recommendations contained in the Office
      of Inspector General's (DIG) uraft report. "The Review of the (cllIers lor Disease Control and
      Prevention's Resolution of Audit ReeoIllmendations."

      The objectives of the review were to ddenn ine whether CDC had (I ) rcso lvcd audit
      recommendations in a timel y manner during the Fisc31 Year's 2007 through 2009 and (2) resolve
      all audit recommenda tions that wcre due audit rcsolution by September 29. 2009.

      O IG R«o mmen dat io n: Resolve all3udil recommendations within the required six-month aud it
      rt.:solution perind.

      C DC Respo nse: CDC remains committed to resolving audit recommendations in the rcquin.:d
      six-month audit resolution period, through central oversight and assistance to its Centers and the
      business st'l"vice offices that suppo rt them. The Office orthc Chief of Stair, as part oflhe
      ongoing agency realignmen t. has commiul-d inercascd resourccs to deve lop standard operating
      procedures that assist stakeholders with the development and monitoring of correcti ve action
      plans (CA P) related to OIG's recommendations as well as their final resolution.

      Importantly. OIG audit findings and recommendations rel ated to infonnation security requires
      the highest due diligence when planning and implementing corrective actions, due to its
      criticality and the amount of resources involved. Please refcr to the third bullet below.

      O IG Recom menda ti on: Resolve the 213 outstanding audit recommendations that were past due
      as ofSeptcmbcr 29, 2009.

      CDC Res ponse: CDC also remains committed 10 resolving all outstanding audit
      recommendations. Although a number of CAPs may still require final devclop111t'flt and full
                                                                                                                         Page 2 of2




          implem..:ntatioTl. WI: uo nol bchcI'1,,: Ihallack (.fu lin:!1 resolution equates ((l poor sh:wunlship of
          federal dollars. We Wllcur with the "recommendation thaI funds be put to bC!1cr lIsc",therctoTc
          CDC will ensure that ('A Ps <lTe devcioped ~nd irnpicmmh.xi in hoth a rt:~pon~ihlc and timel y
          111:I1111cr.

           Importantly. we would like to note the following:

              • 	 CDC has resolved 108 (51 pcrccrn) of the 213 outst:mding <ludil recommendations.
              • 	 The annual Fcdcrnl Infonnation Securit y Management Ac\ Audit accounls for 65 (31
                  percent) of the 213 outstanding audit recommendations. These inli.ml1<1tion Sl:curit )'
                  findings :md CAl' arc reported by CDC 10 the Department as part of the Plan of Act ion
                  and Milt!S\OIlL'S managcmcnllool. Additionally. the Depm1ment provides a summary in
                  its Perfonnance and Accountability Repon to Congress.
              • 	 Eleven outstanding recommendations (5 perc,:nt) :Ire nsso(iatcd with oro repuns issued
                  at lenst four years ngo. CDC is currently researching these rcpons to conlinn resolution.

          For the remaining items. CDC's ChiefofStatf Oflice will contin ue to monitor and assist its
          Centers and Business Services Ofliccs to meet the rcquin.:d resolution period in a responsible
          manrlL'J". consistent with laws, rules and regulutions.

          Th~nk you for your review of the Cent<..TS for Disease Control and Prevention's Resolution of
          Audit Recommendations. Technical comments arc provided in the at tachment. Please direct any
          questions regarding these comments to Mr. Shaun Ratliff. CDC's DIG Ii(liso      ' elephone at
          (404)6]9-2809 or by email at i" '~Il '(/ ede'''I'r /


                                                    :7'~                                  .pj.<,",-'[..-""1:'"


          Attachment




                                                                                                                     2




Office of Inspector General note: We have excluded the attaclunent containing technical
comments.
